@OCKLE

2311 Douglas Street * E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 19-597

MORRIS REESE,
Petitioner,
v.

SPRINT NEXTEL CORPORATION,
TRACFONE WIRELESS, INC.,
VERIZON WIRELESS SERVICES LLC,
AT&T MOBILITY I LLC, AND
T-MOBILE USA, INC.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the SUPPLEMENTAL BRIEF
OF PETITIONER in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 347 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of December, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : Lk ,
My Commission Expires Nov 24, 2020 *

Notary Public Affiant 39239

 

 
